HHS/OIG, Audit -"Review Of Medicare Secondary Payer Processes At Lenox Hill Hospital for Claims Paid Between July 1, 2001 and March 31, 2002,"(A-02-02-01038)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review Of Medicare Secondary Payer Processes At Lenox Hill Hospital for Claims Paid Between July 1, 2001 and March
31, 2002," (A-02-02-01038)
November 17, 2003
Complete
Text of Report is available
in PDF format (1.2 MB). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit reviewed Lenox Hill Hospitals (Lenox) processes and controls for the Medicare Secondary
Payer (MSP) provision.  Medicare laws, regulations and guidelines specify the conditions under which parties other
than the Medicare program have the primary responsibility to pay for health care services.  Our review showed that
Lenoxs processes, procedures and controls were generally adequate, but that Lenox did not always identify the appropriate
primary payer.  As a result, Medicare was overcharged $10,691 on behalf of three beneficiaries.  We also determined
that Lenox underreported credit balances to the Centers for Medicare and Medicaid Services in the amount of $13,066.  We
recommended that Lenox provide additional training and supervision for its registrars, improve the patient information
in the computerized registration system, ensure that the Medicare program is reimbursed for the improper payments and that
pending adjustments are included in its credit balance reports, and place greater emphasis on the importance of credit
balance reporting.  Lenox concurred with our recommendations.